                                                                                                              I




                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: I05050023                                                                        Page 1 of 1


                                                                                                              /I

                 The Department of Justice @OJ) notified us that it was completing settlement negotiations
         with a government contractor' involving allegations arising under (1) federal common law'; (2) the
         False Claims Act;' (3) the Program Fraud Civil Remedies Act;) (4) the Truth in Negotiations Act;'
         (5) the Contract Disputes Act;' and (6) the Anti-Kickback Act of 1 9 8 6 . ~DOJ informed us that a n .
         NSF awardee7had received construction services from the contractor and used NSF funds8to pay for '
         the services. The contractor settled the dispute for double damages totaling $6,635,345.24,of which
         $1,548.44 was attributed to the work paid for under the NSF award. The contractor received a
         narrowly tailored release on claims related to covered acts under the settlement (see attached). We
         have no evidence to suggest that other awards have been impacted by the contractor's actions.

                   Accordingly, this case is closed.


                                                                                                                  I




                                                                                                                  I

                                                                                                                  1
                                                                                                                  I\




         ' Turner Construction Company.
                                                                                                     1;




           31 U.S.C. $5 3729-3733.
                                                                                                     /I           Il
         ' 31 U.S.C. $8 3801-3812.
           10 U.S.C. 8 2306a.
         '41 U.S.C. $6 601-613.
          41 U.S.C. 4851-58.


   ,


NSF OIG Form 2 (1 1/02)
                                 SETTLEMENT 4GREEMENT                                        I




        This Agreement is entered into this   23riday of June, 2005 by and between the United
States of America, acting through the United States Department of Justice, the General Services

Administration ("GS A"), the Department of Veterans'     Affairs   ('YAY'),and the Department of

the Navy ('Wavy") (collectively, "the United Stafes"), and Turner Construction Company

("Turner7*),through their authorized representatives.

                                              Preamble

        As a preamble to ,thisAgreement, .the United States and Turner (collectively, the

'Tarties") agree as follows:

        A.      In or about August 1997, Turner entered into Contract No. V523C-119 with the

VA for construction upon the VA's Boston Medical Center (the 'Boston Medical Center

contracty');in or about June 1996, Turner entered into Contract No. GS-02P-95-DTC-0014Ql)

with the GSA for the construction of a courthouse in Islip, New York (the "Islip contract"); in or

about December 1998, Turner entered into Task Order #0015 under Contract No. N62477-96-D-

0157 for construction of BacheIor enlisted quarters ("Task Order #0015). Turner entered into

other construction contracts or subcontracts with these and other agencies and instrumentalities

of the United States as shown on Exhibit A hereto;

       B.      The United States alleges that Turner violated 3 1U.S.C.    $5 3729-33,41 U.S.C.
§ $ 5 1-58 and the common law as follows: Effective March 1, 1997 and through December 31,
                                                                                                      'I

2000, Turner had an arrangement with its bond broker, AON Risk Services ("AON"), whereby             I1
                                                                                             I
                                                                                                      1
AON credited to Turner a portion of the commissions it received from bonds AON brokered for
                                                                                             ,
                                                                                                      1
                                                                                                      ,
                                                                                                      I
                                                                                     /I

                                                                                             /I
Turner on the contracts that are listed on Exhibit A hereto (the "Covered Conduct"). The United i
                                                                                                      I!


States fi,uther alleges that the Covered Conduct entitles it to a judgment of forfeiture under 28
                                                                                                      I

                                                 -I-,
 U.S.C.   5 2514 upon Turner's claim on the VA's    Boston Medical Center contract currently before,

 the Court of Federa1 Claims in Turner Construction Co. v. United States, Civil Action No. 01-

 149C (Fed. Cl.) (the 'VA Litigationy'),and that the Covered Conduct also serves as an

afEmati& defense of the United States in T m e r Constr. Co. v. GSA, GSBCA Nos. '15502,

 16055,16551 (the "GSA Litigationy'),and Apped of Tumer Construction Co., ASBCA Nos.

54467,54468,54469,54470 (the 'Wavy Litigation");

          C.      Tumer denies the allegations set out above;

          D.      The United States and Turner mutually desire to settle the disputes between them

regarding the Covered Conduct, and agree that nothing in this Agreement shalI be deemed an

admission of liability for any purpose in any judicial or administrative proceeding;

          ACCORDINGLY, in reliance upon the representations contained herein and in

consideration of the mutual promises, covenarits and obligations in this Agreement and the

resolution of the claims set forth beIow, and for good and valuable consideration, receipt of

which is by each acknowledged, the Parties agree as follows:

                                       Terms and Conditions        .

          1. Turner shall pay to the United States the sum of $6,635,345.24 (six million, six

hundred thirty-five thousand, three hundred forty-five dollars and twenty-four cents) in full

settlement of the claims and defenses set forth above concerning the Covered Conduct (the
                                                                                                     j!
"Settlement Amountyy).Turner shall pay $335,345.24 of the full Settlement Amount to the              i
                                                                                                     I1

United States by electronic funds transfer pursuant to written instructions to be provided by the    r
                                                                                                     Jj
                                                                                                II
                                                                                                     I
Dep-ent        of Justice. Turner shall pay the balance of the Settlement Amount ($6,300,000.00)
                                                                                                     'I
                                                                                                     11
to the GSA by electronic h d s transfer pursuant to Mitten instructions to be provided by the
GSA. The electronic funds transfers referenced in this paragraph shall be made no later than

three (3) business days after the Effective Date of this agreement.

        2. Within three (3) business days after the Effective Date of the agreement, Tumer
                                                                                             /I
                                                                                             ~i
                                                                                             'I            I1
agrees that it shall dismiss with prejudice its claims against the United States in the VA                 'I

Litigation and the Navy Litigation. Turner further agrees that it will forever forfeit any rights it

may have to pursue any monetary or non-monetary claims against the United States for itself, its

subcontractors, or others under the Boston Medical Center contract and Task Order #0015.

        3. Upon receipt of the fill Settlement Amount and evidence that Turner has dismissed its
                                                                                                           3
claims against the United States in the VA Litigation and the Navy Litigation as set forth in              /I/I
                                                                                             11
Paragraph 2 above, GSA shall promptly amend its answer in the GSA Litigation to withdraw its

defense based upon the Covered Conduct. However, it is understood and agreed that nothing in

this paragraph shall preclude GSA from pursuing any defenses in the GSA Litigation other than
                                                          .
those based specificallyupon the Covered Conduct.

       4. Subject to full payment of the Settlement Amount set forth in Paragraph 1 above and                   ,

                                                                                                             1
                                                                                               11
Turner's compliance with Pafagraph 2 above, and subject to the exceptions in Paragraph 5 <

beIow, the United States agrees that it will refrain fiom asserting the Specid Plea in Fraud

purSuant to 28 U. S.C. 8 2514 and waives, releases, discharges and promises to refrain fiom

instituting, prosecuting or maintaining any civil claim, action or lawsuit for money damages, or

administrative monetary claim which the United States has or may have against Turner and its

present and former stockholders, officers, directors and employees for the Covered Conduct
                                                                                                  i(            bI
under (a) common law, (b) the False Claims Act, 3 1 U.S.C. $§ 3729-33, (c) the Program Fraud

Civil Remedies Act, 31 U.S.C.   $9 3801-38 12, (d) the Truth in Negotiations Act, 10 U.S.C.            $
                                                                                             I#


2306% (e) the Contract Disputes Act, 41 U.S.C.    $5 601-613, and (f) the Anti-Kickback Act of
                                                                                             1I
 1986,41   U.S.C.55 51-58 (the 'Released ~lairns").
        5. Notwithstanding any tern of this Agreement, specifically reserved and

                                                                                                                  1
                                                       a   .                                 Il
the scope and terms of this Agreement as to any entity or person (including Turner) aie d c
                                                                                             /i/I                 I
following claims of the United States:
                                                                                             Ij                   I
                                                                                             il
                a.     Any civil, criminal, or administrative liability arising under Title 26, U.S.
                                                                                              'I

Code (Internal Revenue Code);
                                                                                              /I
                                                                                              i
                                                                                                                  1
                                                                                                                  !I

                                                                                               !
                b.     Any criminal liability;                                             I1       11
                                                                                           1        Il
                c.     Except as explicitly stated in this Agreement, any administrative liibility,
                                                                                               i
including suspension or debarment;                                                                 1
                                                                                                   I1
                                                                                                   /j
                d.    Any liability to the United States (or its agencies) for any conduct other
                                                                                                   1

than the Covered Conduct;                                                                          11
                                                                                                   il

                e.

                f.
                      Any liability based upon such obligations as a . created by this ~grdement;
                                                                                           I


                      Any liability for express or implied warranty claims or other claims for
                                                                                                 I
                                                                                                    11

                                                                                                        I
                                                                                                                       Ili
                                                                                                                       1




defective or deficient products or s e ~ c e sincluding
                                               ,        quality of goods and services; and
                                                                                                    i
                                                                                                    I
                                                                                                    4
                                                                                                                       l
               g.     Any liability for failure to deliver goods or services due.                       I/
                                                                                                        /I
                                                                                                                       I!I
       6.      Turner hlly and finally releases the United States, its agencies, employees, li
                                                                                                        I)
                                                                                                                       1
                                                                                                        11             I   i
servants, and agents fiom any claims (including attorney7sfees, costs, and expenses of eve!y                               i
                                                                                                    !                      I
kind and however denominated and any cause of action pursuant to the Privacy Act) whicG                                    1
                                                                                                                           il
Turner has asserted, could have asserted, or may assert in the future against the United Sties, its                        1
agencies, employees, servants, and agents, related to the Covered Conduct and the United States'

investigation, prosecution and settlement thereof. Turner reserves the right to enforce the &ms
                                                                                                             lj

of this Agreement.
        7.     The parties agree that all costs (including costs as defined by Federal Acquisition         ,
Regulation 3 1.205.47 and both direct and indirect costs as defined by the United States Postal
                                                                                          1,               I(

Service Purchasing Manual Chapter 5, as applicable) incurred by or on behalf ofTurner and its
                                                                                               I           il

officers, directors, agents, employees and affiliates in connection with (1) the covered Conducf
                                                                                                               1

including litigation costs incurred by Turner, (2) the mediation, negotiation and performance of
                                                                                                               il
the terms of this ~*eement, and (3) the payments made to the United States pursuant to his
                                                                                                                I,

Agreement shalI be unallowable costs for government contract accounting purposes. These

amounts shall be separately accounted for by Turner by accounting records, memorandum                              I(




records if accounting records are unavailable, regardless of whether such memorandum records                       ,
are part of official corporate documentation, or by itemized estimates, ifboth accounting records

and memorandum records are unavailable. Nothing in this Agreement shall constitute a waiver
                                                                                                   I                    I1




of the rights of the United States to audit, examine, or re-examine Turner's books and records to

determine that no unallowable costs have been claimed in accordance with the provisions of this
                                                                                                                             1

Paragraph,
                                                                                                                             I
       8.      Turner waives and will not assert any defenses Turner may have to any criminal

prosecution or administrative action relating to the Covered Conduct that may be based in whole                              I1

or in part on a contention that, under the Double Jeopardy Clause in the Fifth Amendment of the                                  ,I



Constitution, or under the Excessive Fines Clause in the Eighth Amendment of the Constitution,

this Agreement bars a remedy sought in such criminal prosecution or administrative action.                                        I



Nothing in this Paragraph or any other provision of this Agreement constitutes an agreement by
                                                                                                                                  1

the United States concerning the characterization of the Settlement Amount for purposes of h e
                                                                                                       d
Internal Revenue laws, Title 26 of the United States code.
         9.      This Agreement, together with all of the obligations and terms hereof, shall inure        1
                                                                                                           I


 to the benefit of and shall bind assigns, successors-in-interest, or transferees of the Parties hereto.

         10..   The individuals signing this Agreement on behalf of Turner represent and warrant

that they are authorized by Tumer to execute this ~&eement.The United States signatories

represent that they are signing this Agreement in their official capacities and that they are

authorized to execute this Agreement.

        11.     This writing constitutes the entire agreement of the United States and Turner with
                                                                                                           i
respect to the subject matter ofthis Agreement and may not be modified, amended or terminated

except by a written agreement signed by the Parties specificallyreferring to this Agreement.

        12.     Turner represents that this Agreement is fkeely and voluntarily entered into

without any degree of duress or compulsion whatsoever.

        13.     Each Party will bear its own legal and other costs, expenses and fees (including           1/
fees of any attorney, accountant, auditor, and expert witness) incurred in connection with this

matter, including the investigation, prosecution, negotiation, preparation and performance of this

Agreement.

        14.     Turner consents to the United States' disclosure of this Agreement, and

information about this Agreement, to the public.                                                           J

        15.     This Agreement may be executed in countqarts, each of which constitutes an
                                                                                               1
                                                                                                           I
original and all of which constitute one and the same agreement.

        16.     This Agreement is governed by the laws of the United States. The Parties agree

that the exclusivejurisdiction and venue for any dispute arising between and among the parties

under the Agreement will be the United States District Court for the District of Columbia.
        17.    The Effective Date of this Agreement shall be the date of the signature of the last

signatory to this Agreement. Facsimiles of signatures shall constitute acceptable, binding

signatures for purposes of this Agreement.                                                             11

                                                                                          I
                                                                                                       il            -
       In Witness Whereof, the Parties, through their duly authorized representatives, hereunder '

set their hands.


                                                                                                            I


                                                                                                        I/
                                     ON BEWF'OF          THE WTED STATES OF
                                     AMERICA

                                     PETER D.KELSLER

                                                                                                            I
                                                                                                            I1




                                     Tracy L. Hilmer
                                     Attorneys       '

                                     Commercial Litigation Branch
                                     Civil Division
                                     United States Department of Justice                      j

                                     601 D Street, NW '
                                     Washington, DC 20004




                                     D%vidM. Cohen                                            I                 'I
                                                                                                                i
                                     Bryant Snee                         \                                       1
                                                                                                                 I
                                     James Poirier
                                     Attorneys
                                     Commercial Litigation Branch
                                     Civil Division
                                     United States Department of Justice
                                     1100 L Street, NW
                                     Washington, DC 20005                                         ,I             1
-   '
        JUNC17-2005 FRI 03:31 PM                            FAX NO,
        r .                        -   i                                  I




            Dated:   611 7hJ(
                                       Senior Assistant Gencral Counsel
                                       General Services Administration


                                       Dean ICoepp
                                       Coatra~tJngOfficer
                                       Department of thc Navy
                                       Naval Facilities Engiaecrizlg Commmd Washington



                                       ON B E W B OB T U W R CONSTRUCTION
                                       COMTPANY



                                                                                         /I
            Dated:
                                       Mattihew B.Fislfiein
                                       ~ebevoise& Plimpton LLP
                                                                                    A



                                                                                         /j
                                                                                         /I
                                                                                              I
                                                                                              1
                                       Couasd to Turnsr C o ~ t . i o Company
                                                                      n




                                       Thomas C. Leppest
                                       Chairman and Chief Exec~~tive
                                                                   Officer
                                       T m e r Construction Compmy
                                                           . -

                                       FAX NO,         -




Dated:
                 Joan Ryan
                 Contracting Officer
                 General Services .4dministrati,on



Dated:
                 Thomas Hawkins
                 Senior Assisrant General Counsel
                 General Services Administration

Dated:   p$fq-
                 Department of the Navy
                 Naval Faoilities Engineering Command Washington   ,
                                                                   I1
                                                                        1
                                                                        I




                 ON BEE4LF OF TURNER CONSTRUCTION
                 COMPrnY



Dated:
                 Matthew E.Fishbein
                                                                   I

                                                                   1
                                                                        1
                 Debevoise & Plimpton LLP
                 Counsel to Turner Construction C.ompany




Dated:                                                             I,

                 Thomas C,Leppert                                  11   I


                 Chaiiirman and ChiefExecutive O a c e r                /I
                 Turner Construction Company
oU7O~/ Lr rI /rUwJ y arLV-n   r u . % u r crm
                       o . y o rM 614
                                                r*-rrr--..--
                                                ~   V   VOJV                v~~rrr-u-~oE
                                                                                      or rbrmtrvn   L L ~
                                                               .    -
   J@i-15-2005            WED. 101 60 Rn                           ,,                      FAX NO,          i




                                                                        Joan Ryaa
                                                                        Contracting O ~ G W
                                                                        G ~ ~ e rServices
                                                                                  al      AdnJnfsWi.tion




                                                                        Doan Koepp                                         r       11
                                                                        Cwtea~tingOfiiQ&
                                                                        Dep-      of the Navy
                                                                        N d PaciIiries Bngineen'ngC c ~ m a n dW a g t c m


                                                                        OM B W P OF TURN5R CONSTRUCTION
                                                                        C           O         ~             ~                  I    /j




                                                                        Matthew B,Fisbbd                                            li




                                                                                                       Officer
 -,' E l . .


3/2&/2$Xf5'&6:69          F q 212   909 6838       F    DEBEVOISE & PLIhEPTON LLP
                                                                        FAX NO,
                                                                                         - r
 JUN-15-2005            ED' 10 :50 AH



               Dated!




               Dated:
                                                       Thomas: Haw1b
                                                       Scnior Assisht Generd C o w e l
                                               -       General Services AdminishPtim

               Dated: ,
                                                       Dean Koepp
                                                       Contracting OEca
                                                       Departmat ofthe Navy
                                                       Naval Facilities Ebgheering C o m d Washizlgtan



                                                       ON E E W B OF TURKER CONSTRUCTION
                                                       COMPANY


               Dated:




                                                       TumnConst.cuction Company
